IN THE
SUPREME COURT OF THE UNITED STATES

SCOTT SCHWAB, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF STATE FOR THE STATE OF KANSAS,
Petitioner,
v.
STEVEN WAYNE FISH, ET AL., ET AL.,
Respondents.

)
)
)
)
)
)
)
)
)
)

No. 20-109
On Petition for a Writ of Certiorari
to the U.S. Court of Appeals for the
Tenth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the “Brief Amicus
Curiae of Eagle Forum Education & Legal Defense Fund in Support of Petitioner” filed on
behalf of Eagle Forum Education & Legal Defense Fund in the above-captioned
matter contains 5,999 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 2, 2020.

Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 200
Washington, DC 20036
Tel: (202) 355-9452
Email: lj@larryjoseph.com
Counsel for Amicus Curiae

